                  Report on Application of Agreed Upon
                Procedures – Quick Closeout for Contract
                       Number TIRNO-95-D-00061

                                  June 2004

                     Reference Number: 2004-1C-111




  This report has cleared the Treasury Inspector General For Tax Administration
disclosure review process and information determined to be restricted from public
                  release has been redacted from this document.
                                      DEPARTMENT OF THE TREASURY
                                          WASHINGTON, D.C. 20220



INSPECTOR GENERAL
      for TAX
  ADMINISTRATION



                                              June 7, 2004


       MEMORANDUM FOR DAVID A. GRANT
                      DIRECTOR OF PROCUREMENT
                      INTERNAL REVENUE SERVICE



       FROM:                   Daniel R. Devlin
                               Assistant Inspector General for Audit (Headquarters Operations
                               and Exempt Organizations Programs)

       SUBJECT:                Report on Application of Agreed Upon Procedures – Quick
                               Closeout for Contract Number TIRNO-95-D-00061
                               (Audit #20041C0229)


       In response to your request, the Defense Contract Audit Agency (DCAA) applied agreed
       upon procedures to evaluate direct costs and associated indirect expenses claimed by
       the contractor in final voucher numbers 14, 9, 7, 16, 18, 16, 8, 7, 19, 15, 22, 2, 22, 18, 5,
       4, 30, and 5, respectively, issued under contract number TIRNO-95-D-00061, delivery
       order numbers 3232, 0004, 0013, 0014, 0017, 0015, 0018, 0020, 0021, 0022, 0025,
       0028, 0012, 2206, 2207, 0005, 0008, and 0007. The purpose of the engagement was
       to assist in closing out the contract delivery orders using administrative quick closeout
       procedures under the Federal Acquisition Regulation, Part 42. The report pertains only
       to the performance of agreed upon procedures. The DCAA did not perform an
       examination and, therefore, does not express an opinion.
       The DCAA considers the Fiscal Year (FY) 2002 submitted rates acceptable for quick
       closeout. The DCAA indicated that the claimed direct and indirect expenses for FYs
       1996 through 2000 have not been examined with specific tests concerning Internal
       Revenue Service contractual requirements and regulations and are subject to your
       determination. The claimed direct costs have been verified to incurred cost schedules
       and supporting cost records and claimed indirect expenses are based on application of
       established final rates to associated base costs. The DCAA also indicated that claimed
       adjustments of ($510) for FY 2002, which have been verified to the contractor’s cost
       records and final rate submittal, is subject to your determination.
                                           2




The information in this report should not be used for purposes other than those intended
without prior consultation with the Treasury Inspector General for Tax Administration
regarding their applicability.
If you have any questions, please contact me at (202) 622-8500 or John R. Wright,
Director, at (202) 927-7077.


Attachment
                                NOTICE:
The Office of Inspector General for Tax Administration has no objection to the
release of this report, at the discretion of the contracting officer, to duly
authorized representatives of the contractor.

The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to
the public.

This report may not be released without the approval of this office, except to an
agency requesting the report for use in negotiating or administering a contract
with the contractor.

                  The TIGTA seal was removed due to its size.
